June 8, 2010


Memorandum for:                     The Federal Co-Chair
                                    ARC Executive Director


Subject:                            OIG Report 10-05
                                    Fiscal Years 2008 and 2009 Financial Statement Audits


The enclosed report presents the results of the audit of the Commission’s financial statements for
the fiscal years ended September 30, 2008 and 2009. The report should be read in conjunction
with the Commission’s financial statements and notes to fully understand the context of the
information contained therein.

The Appalachian Regional Commission (ARC) contracted with the independent certified public
accounting firm of WithumSmith+Brown (WSB) to audit the financial statements of the
Commission as of and for the fiscal years ended September 30, 2008 and 2009. The contracts
required that the audits be conducted in accordance with U.S. generally accepted government
auditing standards and OMB audit guidance. ARC’s Office of Inspector General monitored audit
activities to help ensure audit quality.

The following results were noted from WSB’s audit of ARCs financial statements for the Fiscal
Year Ended, September 30, 2009.

•   WSB expressed an unqualified opinion on ARC’s financial statements and reported that they
    were presented fairly in all material respects, in accordance with U.S. generally accepted
    accounting principles.

•   WSB was not contracted for and did not provide an opinion on the effectiveness of ARC’s
    internal controls. However, WSB did state that they did not identify any deficiencies in
    internal control that were considered to be material weaknesses,* relative to their expressing
    an opinion on ARC’s financial statements.

•   Two significant deficiencies were reported. One was related to the Department of
    Transportation’s failure to timely correct recordkeeping errors previously identified** and the
    other was related to ARC’s controls over its information systems.


* A material weakness is a condition that results in more than a remote likelihood that a material misstatement of the
financial statements will not be prevented or detected by the Commission’s internal controls.

** This significantly contributed to ARC’s failure to meet OMB’s reporting deadline.
•   WSB did not express an opinion on compliance with laws and regulations, but noted no
    instances of non-compliance with laws or regulations required to be reported under the
    provision of OMB Bulletin 07-04.

In connection with the contract, we reviewed WithumSmith+Brown’s report and related
documentation and inquired of its representatives. Our involvement in the audit process
consisted of monitoring of audit activities, reviewing auditor independence and qualifications,
attending meetings, participating in discussions, and reviewing audit planning and conclusion
workpapers and reports. Our review, as differentiated from an audit in accordance with U.S.
generally accepted government auditing standards, was not intended to enable us to express, and
we do not express, opinions on the Appalachian Regional Commission’s financial statements,
conclusions about the effectiveness of internal control, or conclusions about compliance with
laws and regulations. WithumSmith+Brown is responsible for the attached auditor’s report dated
May 7, 2010 and the conclusions expressed in the report. However, our review disclosed no
instances where WithumSmith+Brown did not comply, in all material respects, with U.S.
generally accepted government auditing standards.




Clifford H. Jennings
Inspector General


Attachment

cc: Director, Finance and Administration Division
APPALACHIAN REGIONAL COMMISSION

        Financial Statements

    September 30, 2009 and 2008

  With Independent Auditors’ Report
Appalachian Regional Commission
Table of Contents
September 30, 2009 and 2008


                                                                                                                                                        Page(s)

Independent Auditors’ Report .......................................................................................................................... 1-6

Financial Statements

Balance Sheets ................................................................................................................................................... 7 

Statements of Net Cost ....................................................................................................................................... 8 

Statements of Changes in Net Position ......................................................................................................... 9-10 

Statement of Budgetary Resources .................................................................................................................. 11 

Notes to Financial Statements ..................................................................................................................... 12-22 
WithumSmith+Brown
A Professional Corporation
Certified Public Accountants and Consultants




8403 Colesville Road, Suite 340
Silver Spring, Maryland 20910-6331 USA
301 585 7990 . fax 301585 7975
www.withum.com

Additional Offices in New Jersey
New York and Pennsylvania



                                                                                INDEPENDENT AUDITORS’ REPORT



                    To the Commission Members
                    Appalachian Regional Commission
                    Washington, D.C.
                    In our audit of the Appalachian Regional Commission (ARC) for the fiscal year (FY) 2009, we found:
                          •        The financial statements are presented fairly, in all material respects, in conformity with U.S. generally
                                   accepted accounting principles;
                          •        ARC made significant progress in addressing FY 2008 issues and accordingly only two significant
                                   deficiencies in internal control over financial reporting remained open in FY 2009; and
                          •        no instances of non-compliance with laws and regulations were found.

                    The following sections discuss each of these conclusions in more detail.

                    Opinion on Financial Statements

                    We have audited the accompanying balance sheets of ARC as of September 30, 2009 and 2008, and the related
                    statements of net cost, changes in net position, and budgetary resources for the years then ended in accordance
                    with U.S. generally accepted auditing standards, Government Auditing Standards, and OMB Bulletin 07-04, Audit
                    Requirements for Federal Financial Statements. The financial statements are the responsibility of ARC’s
                    management. Our responsibility is to express an opinion on these financial statements based on our audits.
                    Except as discussed in the following paragraph, we conducted our audits in accordance with auditing standards
                    generally accepted in the United States of America. Those standards require that we plan and perform the audit
                    to obtain reasonable assurance about whether the financial statements are free of material misstatement. An
                    audit includes examining, on a test basis, evidence supporting the amounts and disclosures in the financial
                    statements. An audit also includes assessing the accounting principles used and significant estimates made by
                    management, as well as evaluating the overall financial statement presentation. We believe that our audits
                    provide a reasonable basis for our opinion.

                    ARC, a parent agency, was unable to obtain documentation supporting the funds transferred to the U.S.
                    Department of Transportation (DOT), its child agency as of September 30, 2008. In addition, DOT was unable to
                    provide a detailed schedule supporting its ARC grant balances. As a result, we were not able to satisfy ourselves
                    as to the amounts reported in the FY 2008 financial statements related to DOT grants.




                                                                                                        1


  A member of HLB International. A world-wide organization of accounting firms and business advisers.
In our opinion, except for the effects on the FY 2008 financial statements of such adjustments, if any, as
would have been determined to be necessary had we been able to satisfy ourselves about the matters
discussed in the third paragraph in this section, the financial statements referred to in the first paragraph
present fairly, in all material respects, the financial position of the Appalachian Regional Commission as of
September 30, 2009 and 2008, and its net costs, changes in net position, and budgetary resources for the
years then ended in conformity with U.S. generally accepted accounting principles.
The information in Management’s Discussion and Analysis and Required Supplementary Stewardship
Information sections are not a required part of the financial statements, but is supplementary information
required by U.S. generally accepted accounting principles and OMB Circular A-136. We have applied certain
limited procedures, which consisted principally of inquiries of management regarding the methods of
measurement and presentation of the information. However, we did not audit the information and express no
opinion on it.

The information in the Message from the Federal Co-Chair, Performance Report, Other Accompanying
Information and Appendices are presented for purposes of additional analysis and are not required as part of
the financial statements. This information has not been subjected to auditing procedures, and accordingly,
we express no opinion on it.

Report on Internal Control over Financial Reporting

In planning and performing our work, we considered ARC’s internal control over financial reporting as a basis
for developing our audit procedures for the purpose of expressing an opinion on the financial statements but
not for the purpose of expressing an opinion on the effectiveness of ARC’s internal control over financial
reporting. Accordingly, we do not provide an opinion on the effectiveness of ARC’s internal control over
financial reporting.

A control deficiency exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent or detect misstatements
on a timely basis. A significant deficiency is a control deficiency, or combination of control deficiencies, that
adversely affects the entity’s ability to initiate, authorize, record, process, or report financial data reliably in
accordance with generally accepted accounting principles, such that there is more than a remote likelihood
that a misstatement of the entity’s financial statements that is more than inconsequential will not be prevented
or detected by the entity’s internal control.

A material weakness is a significant deficiency, or combination of significant deficiencies, that results in more
than a remote likelihood that a material misstatement of the financial statements will not be prevented or
detected by ARC’s internal control.

Our consideration of the internal control over financial reporting was for the limited purpose described above
and would not necessarily identify all deficiencies in internal control over financial reporting that might be
significant deficiencies or material weaknesses. We did not identify any deficiencies in internal control that we
consider to be material weaknesses as defined above. Exhibits I and II presents the status of the prior year
material weaknesses and significant deficiencies.

Report on Compliance and Other Matters

ARC management is responsible for complying with laws and regulations applicable to the agency. We are
responsible for performing tests of its compliance with certain provisions of laws and regulations that have a
direct and material effect on the financial statements and certain other laws and regulations specified in OMB
Bulletin No. 07-04. Providing an opinion on compliance with those provisions was not an objective of our
audit and, accordingly, we do not express such an opinion.

The results of our tests of compliance with laws and regulations disclosed no instances of non-compliance
that are required to be reported under Government Auditing Standards or OMB Bulletin No. 07-04.

We noted certain other matters that we have reported to the Commission Members and management of ARC
in a separate letter dated May 7, 2010.

                                                           2
This report is intended solely for the information and use of ARC’s management, the Office of Management
and Budget, the Government Accountability Office, and the U.S. Congress, and is not intended to be and
should not be used by anyone other than these specified parties.




May 7, 2010




                                                     3
                                                                                                           Exhibit I
                   Status of Prior Year Material Weaknesses and Significant Deficiencies
                                    (Current Year Significant Deficiencies)

                                         As Reported at                                  Status as of
  Prior Year Condition                 September 30, 2008                            September 30, 2009
Lack of Full                Material Weakness: ARC was unable            Changed to a Significant Deficiency:
Implementation of           to verify the integrity of the child         ARC continues to make progress in
Parent/Child Reporting      agency data or gain an understanding         addressing child agency reporting
Requirements                of the internal controls in place related    deficiencies noted in the prior years. In
                            to these allocated funds. Because of         FY 2009, ARC had ongoing issues with
                            ARC’s inability to verify the integrity of   financial information provided by the
                            the data, ARC management was not in          Department of Transportation (DOT).
                            a position to take responsibility for and    The errors that were corrected on ARC’s
                            to make representations concerning           records through our prior year audit were
                            the fair presentation of the child           not corrected by DOT in a timely
                            agency data.                                 manner. Because this issue was not
                                                                         resolved until February 2010, the
                            Although ARC had been able to obtain
                                                                         issuance of this report was delayed.
                            financial information from its child
                            agencies and to verify the data, DOT’s
                            inability to provide detailed support for
                            its grants balances resulted in a
                            qualified opinion on ARC’s FY 2008
                            financial statements.

Weaknesses in IT            Significant Deficiency: During our FY        Remains a Significant Deficiency.
General Controls            2008 audit, we noted that ARC has not        ARC continued to make progress
                            yet performed a detailed risk                during FY 2009 to improve and
                            assessment, which would help ARC             upgrade the management of its
                            assess the likelihood and impact of          information systems and either
                            potential vulnerabilities, so that ARC       completed or began work in many key
                            can better determine how to allocate         areas of implementation in correcting
                            and prioritize its limited resources. This   deficiencies noted in prior years.
                            risk assessment should then drive how
                                                                         Some of the key activities began or
                            ARC will address the control
                                                                         completed in FY 2009 include: 1)
                            weaknesses we identified in our audit,
                                                                         completion of an information system
                            and help decide the most cost effective
                                                                         security categorization; 2) initiation of a
                            ways to reduce the associated risks.
                                                                         detailed risk assessment; 3)
                            Also, during FY 2008, we performed           implementation of a virtualized
                            certain tests over ARCs IT general           environment; 4) migration to a new
                            controls impacting its key financial and     network security firewall appliance; 5)
                            support systems. The two primary             implementation of a new VPN system; 6)
                            systems we focused on are the                training of ARC employees on security
                            GLOWS accounting system and the              awareness; and 7) implementation of a
                            ARCNET grants management system.             power management system.
                            We identified the following specific
                                                                         However, at the end of FY 2009, the
                            areas where the controls are not in
                                                                         following specific areas still remain
                            place or not operating effectively: 1)
                                                                         where controls were not yet in place or
                            security management; 2) access
                                                                         not operating effectively: 1) security
                            controls; 3) configuration / change
                                                                         management; 2) access controls; 3)
                            management; 4) segregation of duties;
                                                                         configuration/change management; 4)
                            and 5) contingency planning.
                                                                         segregation of duties; and 5)
                                                                         contingency planning.
                                                                         ARC has taken steps to improve each of
                                                                         these five areas, most notably, the
                                                                         implementation of an accounting service
                                                                         provider (GSA) beginning in FY 2010 to
                                                                         replace the GLOWS accounting system,
                                                        4
                         As Reported at                    Status as of
Prior Year Condition   September 30, 2008              September 30, 2009
                                            which was a source of many of these
                                            deficiencies. The evaluation of the
                                            controls related to the new accounting
                                            system and service provider will occur
                                            during the FY 2010 audit.
                                            As a result of these control weaknesses,
                                            ARC is subject to the risk that data could
                                            be accessed, transmitted or manipulated
                                            by unauthorized personnel and the risk
                                            that systems could become unstable or
                                            unavailable.
                                            The specific nature of these weaknesses
                                            and the associated details has been
                                            communicated in a separate letter to the
                                            Commission Members and management
                                            due to the sensitive nature and the
                                            potential misuse of this information.
                                            There were no new weaknesses
                                            identified in FY 2009 that were not also
                                            reported in our FY 2008 audit.




                                     5
                                                                                                         Exhibit II

                                Prior Year Significant Deficiencies and
                          Non-Compliance with Significant Laws and Regulations

                                         As Reported at                                  Status as of
  Prior Year Condition                September 30, 2008                            September 30, 2009
Controls Over               Significant Deficiency: There was a          No longer considered a Significant
Compliance with Federal     deficiency related to reporting              Deficiency. This issue has moved to
Reporting Requirements      information required by OMB Circular         the Management Letter. Going forward
Not Fully Implemented       A-136. ARC accounting staff prepared         ARC will no longer prepare the
                            a reconciliation of budgetary and            reconciliation. As of October 1, 2009,
                            proprietary data; however, ARC still         ARC moved its accounting function to
                            has difficulty reconciling its proprietary   GSA’s shared services. GSA will enter
                            with its budgetary data which resulted       ARC’s financial transactions, generate
                            in a $1.2 million unexplained difference     the financial statements (including the
                            at year-end.                                 reconciliation of the proprietary to the
                                                                         budgetary), and submit ARC’s SF-224
                                                                         and FACTS II Reports.

Lack of Adequate Grant      Significant Deficiency: To record a          No longer considered a Significant
Accrual Methodology         grant accrual as of September 30,            Deficiency. This issue has moved to the
                            2008, ARC collected all the financial        Management Letter. ARC has developed
                            reports received from the grantees           a reasonable methodology to estimate
                            from October 1, 2008 through                 their accrual and will continue with an
                            February 15, 2009 (4 ½ months after          analysis of grant payments until they
                            the end of the fiscal year). ARC did         develop a definitive and defendable
                            not have an effective process to record      grant accrual rate.
                            grant accruals on a quarterly basis
                            which resulted in an understatement of
                            its liabilities and expenses on the
                            interim and year-end financial
                            statements provided to OMB.

Anti-Deficiency Act         Significant Deficiency: During FY            This finding is closed.
Violation                   2008, ARC management disclosed
                            that several Anti-Deficiency Act
                            violations had occurred. The ARC
                            Federal Co-Chair reported the
                            violations along with all relevant facts
                            and a statement of actions to the OMB
                            and is waiting for OMB guidance prior
                            to reporting the violations to the
                            President of the United States,
                            Congress and the Comptroller General
                            of the United States as required by 31
                            U.S.C. §1351.




                                                        6
Appalachian Regional Commission
Balance Sheets
September 30, 2009 and 2008


                                                                                   2009              2008
Assets

   Intragovernmental
       Fund balance with U.S. Treasury (Notes 1 & 2 )                         $   161,967,586   $   155,078,061
       Advances (Notes 1 & 3 )                                                     12,329,479        11,850,630
         Total intragovernmental                                                  174,297,065       166,928,691

   Cash in commercial institutions (Note 1 )                                           31,012            87,820
   Advances (Notes 1 & 3 )                                                         29,767,568        30,868,453
   Equipment, net (Note 1 )                                                                 -                 -

                                                                              $   204,095,645   $   197,884,964

Liabilities and Net Position

   Intragovernmental
       Advances (Notes 1 & 4 )                                                $      626,729    $      658,072
           Total intragovernmental                                                   626,729           658,072


   Accounts payable (Notes 1 & 4 )                                                  3,460,229         3,620,067
   Benefits due and payable (Notes 1, 4 & 5 )                                       1,567,145         2,374,812
   Other                                                                              31,012            75,304
                                                                                    5,058,386         6,070,183


      Total liabilities                                                             5,685,115         6,728,255


   Unexpended appropriations                                                      117,867,086       108,140,376
   Cumulative results of operations-earmarked fund (Note 7 )                         981,356           (398,346)
   Cumulative results of operations                                                79,562,088        83,414,679
           Total net position                                                     198,410,530       191,156,709


                                                                              $   204,095,645   $   197,884,964




Balance Sheets




The Notes to Financial Statements are an integral part of these statements.

                                                           7
Appalachian Regional Commission
Statements of Net Cost
Years Ended September 30, 2009 and 2008



                                                                                  2009             2008
Net cost of operations:
  Program costs                                                               $   71,534,461   $   74,981,260
  Less: earned revenues                                                            3,788,282        4,636,738

      Net cost of operations                                                  $   67,746,179   $   70,344,522




Statements of Net Cost




The Notes to Financial Statements are an integral part of these statements.

                                                           8
Appalachian Regional Commission
Statement of Changes in Net Position
Year Ended September 30, 2009

                                                                                      2009

                                                              Earmarked             All Other      Consolidated
                                                                  Fund               Funds              Total

Cumulative results of operations, beginning               $        (398,346)    $    83,414,679    $    83,016,333

Budgetary financing sources:
  Appropriations used                                                     -          65,273,290         65,273,290
  Transfers in/out without reimbursement                          3,762,000          (3,762,000)                 -
  Total financing sources                                         3,762,000          61,511,290         65,273,290

   Net cost of operations                                         (2,382,298)       (65,363,881)       (67,746,179)
   Net change                                                      1,379,702         (3,852,591)        (2,472,889)

Cumulative results of operations, ending                  $         981,356     $    79,562,088    $    80,543,444

Unexpended appropriations, beginning                      $                -    $ 108,140,376      $ 108,140,376

Budgetary financing sources:
  Appropriations received                                                  -         75,000,000         75,000,000
  Other adjustments                                                        -                  -                  -
  Appropriations used                                                      -        (65,273,290)       (65,273,290)
  Total budgetary financing sources                                        -          9,726,710          9,726,710

   Total unexpended appropriations                                         -        117,867,086        117,867,086

Net position                                              $         981,356     $ 197,429,174      $ 198,410,530




Statements of Changes in Net Position




The Notes to Financial Statements are an integral part of these statements.

                                                              9
Appalachian Regional Commission
Statement of Changes in Net Position
Year Ended September 30, 2008

                                                                                    2008

                                                              Earmarked           All Other      Consolidated
                                                                Fund               Funds              Total

Cumulative results of operations, beginning               $     (1,156,994)   $    84,027,762    $    82,870,768

Budgetary financing sources:
  Other adjustments                                                                                            -
  Appropriations used                                                   -          70,490,087         70,490,087
  Transfers in/out without reimbursement                        3,608,000          (3,608,000)                 -
  Total financing sources                                       3,608,000          66,882,087         70,490,087

   Net cost of operations                                       (2,849,352)       (67,495,170)       (70,344,522)
   Net change                                                      758,648           (613,083)           145,565

Cumulative results of operations, ending                  $      (398,346)    $    83,414,679    $    83,016,333

Unexpended appropriations, beginning                      $               -   $ 110,644,441      $ 110,644,441

Budgetary financing sources:
  Appropriations received                                                 -        73,032,000         73,032,000
  Other Adjustments                                                       -        (5,045,978)        (5,045,978)
  Appropriations used                                                     -       (70,490,087)       (70,490,087)
  Total budgetary financing sources                                       -        (2,504,065)        (2,504,065)

   Total unexpended appropriations                                        -       108,140,376        108,140,376

Net position                                              $      (398,346)    $ 191,555,055      $ 191,156,709




The Notes to Financial Statements are an integral part of these statements.

                                                          10
Appalachian Regional Commission
Statements of Budgetary Resources
Years Ended September 30, 2009 and 2008

                                                                                   2009               2008

Budgetary Resources
  Unobligated balance brought forward October 1                               $    28,796,944    $    24,875,320
   Recoveries of prior year unpaid obligations                                      8,242,388          8,083,423
   Budget authority
     Appropriation                                                                 82,524,000         80,248,000
     Spending authority from offsetting collections
       Earned
          Collected                                                                 1,990,031          1,767,181

   Total budgetary resources                                                  $   121,553,363    $   114,973,924

Status of Budgetary Resources
   Obligations incurred                                                       $    92,196,158    $    86,176,980
   Unobligated balance available                                                   26,925,233         25,496,404
   Unobligated balance not available                                                2,431,972          3,300,540

   Total status of budgetary resources                                        $   121,553,363    $   114,973,924


Change in Obligated Balance
  Unpaid obligated balance, net brought forward October 1                     $   126,281,117    $   131,317,085
  Obligations incurred, net                                                        92,196,158         86,176,980
  Less: Gross outlays                                                             (77,662,809)       (83,175,715)
  Less: Recoveries of prior year unpaid obligations, actual                        (8,242,388)        (8,083,422)
  Less: Uncollected customer payments from federal sources                                  -             46,189

   Unpaid obligated balance, net end of period                                $   132,572,078    $   126,281,117

Net Outlays
  Gross outlays                                                               $    77,662,809    $    83,175,715
  Offsetting collections                                                           (1,990,032)        (1,813,371)
  Offsetting receipts                                                              (7,550,281)        (4,720,432)

   Net outlays                                                                $    68,122,496    $    76,641,912




Statement of Budgetary Resources




The Notes to Financial Statements are an integral part of these statements.

                                                          11
Appalachian Regional Commission
Notes to Financial Statements
September 30, 2009 and 2008
1.      Summary of Significant Accounting Policies
Notes to Financial Statements
        Reporting entity
        The Appalachian Regional Commission (ARC) was established under the Appalachian Regional
        Development Act of 1965, as amended; the Appalachian Regional Development Reform Act of 1998; and
        the Appalachian Regional Development Act Amendments of 2002. ARC is a regional development
        agency designed to function as a federal, state, and local partnership. ARC is not a federal executive
        branch agency (as defined in Title 5 and 31 of the United States Code and by the Department of Justice).

       Commission members are comprised of a federal member (Federal Co-Chair), who is appointed by the
       President of the United States, and the governors of each of the 13 states in the Appalachian Region.
       The state members elect a State Co-Chair from their members. ARC has an Executive Director and
       Program and Administrative Offices that implement the policies and procedures established by the
       Federal and State Co-Chairs. ARC personnel are comprised of both federal and non-federal employees.

       ARC supports economic and social development in the Appalachian Region. The Appalachian Region is
       a 200,000 square mile region from the Appalachian Mountains in Southern New York to Northern
       Mississippi. The ARC programs affect approximately 420 counties located in 13 states including all of
       West Virginia and parts of Alabama, Georgia, Kentucky, Maryland, Mississippi, New York, North Carolina,
       Ohio, Pennsylvania, South Carolina, Tennessee, and Virginia.

       Fund accounting structure
       ARC's financial activities are accounted for by utilizing individual funds and fund accounts in reporting to
       the U.S. Treasury and the Office of Management and Budget. For financial statement purposes, these
       funds are classified as an earmarked fund and all other funds. Earmarked funds are financed by
       specifically identified revenues often supplemented by other financing sources which remain available
       over time. These specifically identified revenues and other financing sources are required by statute to be
       used for designated activities, benefits, or purposes and must be accounted for separately from the
       Government's general revenues. ARC’s earmarked fund and all other funds are identified as follows:

       Earmarked fund
       A trust fund was established by the U.S. Treasury under the authority of the Appalachian Regional
       Development Act of 1965, to receive, hold, invest, and disburse monies collected to cover the
       administrative expenses of ARC. The administrative expenses are paid equally by the federal
       government and the states in the Appalachian Region as determined annually by ARC.

       All other funds
       All other funds consist of area development program funds and funding for the Office of the Federal
       Co-Chair and the Office of Inspector General.

       Budgets and budgetary accounting
       ARC programs and activities are funded through no-year appropriations and contributions from the 13
       states in the Appalachian Region. Federal funds are available without fiscal year limitation and remain
       available until expended. Because of the no-year status of the funds, unobligated amounts are not
       returned to the U.S. Treasury.

       Basis of accounting and presentation
       These financial statements present the financial position, net cost of operations, changes in net position,
       and budgetary resources of ARC in accordance with U.S. generally accepted accounting principles
       (GAAP) and form and content requirements of OMB Circular A-136 Financial Reporting Requirements.
       GAAP for federal entities are the standards prescribed by the Federal Accounting Standards Advisory

                                                       12
Appalachian Regional Commission
Notes to Financial Statements
September 30, 2009 and 2008
     Board (FASAB), which is the official standard-setting body for the federal government. The financial
     statements have been prepared from the books and records of ARC, and include the accounts of all
     funds under the control of the ARC reporting entity.

     U.S. generally accepted accounting principles encompass both accrual and budgetary transactions.
     Under accrual accounting, revenues are recognized when earned, and expenses are recognized when
     incurred. Budgetary accounting facilitates compliance with legal constraints on, and controls over, the
     use of federal funds. These financial statements are prepared by ARC pursuant to OMB directives and
     used to monitor ARC's use of budgetary resources.

     Fund Balance with U.S. Treasury
     ARC's cash receipts and disbursements are processed by the U.S. Treasury. Funds with U.S. Treasury
     represent obligated and unobligated no-year funds available to finance allowable current and future
     expenditures.

     Cash in Commercial Institutions
     ARC uses commercial bank accounts to accommodate collections and payments that cannot be
     processed by the U.S. Treasury. Cash in commercial institutions totaled $31,012 and $87,820 at
     September 30, 2009 and 2008, respectively.

     Advances
     ARC advances funds to other federal agencies for work performed on its behalf under various
     reimbursable agreements. These intra-governmental advances are recorded as an asset, which is
     reduced when actual expenditures or the accrual of unreported expenditures are recorded.

     ARC also has advances made to grantees for revolving loan fund payments to provide pools of funds to
     be made available to grantees to create and retain jobs. These advance payments are recorded by ARC
     as an asset, which is reduced if the revolving fund is terminated.

     Equipment
     ARC’s equipment is recorded at cost. Depreciation is computed using the straight-line method over the
     estimated useful lives of the assets. The capitalization threshold is $50,000. All equipment was fully
     depreciated at September 30, 2009 and 2008.

     Liabilities
     Liabilities represent probable amounts to be paid by ARC as a result of past transactions. Liabilities
     covered by budgetary or other resources are those for which Congress has appropriated funds or funding
     is otherwise available to pay amounts due.

     Liabilities not covered by budgetary or other resources represent amounts owed in excess of available
     congressionally appropriated funds or other amounts. The liquidation of liabilities not covered by
     budgetary or other resources is dependent on future Congressional appropriations or other funding.

     Accounts Payable
     Accounts payable consists of amounts owed to grantees and amounts owed to federal and non-
     federal entities for goods and services received by ARC.

     Benefits Due and Payable:
     Unfunded Annual Leave
     Annual leave is accrued as it is earned and the accrual is reduced as leave is taken. Each year, the
     balance in the accrued leave account is adjusted to reflect current pay rates. To the extent current or

                                                   13
Appalachian Regional Commission
Notes to Financial Statements
September 30, 2009 and 2008
     prior year appropriations are not available to fund annual leave earned but not taken, funding will be
     obtained from future financing sources. Sick leave and other types of non-vested leave are expensed as
     taken.

     Retirement Benefits
     ARC’s federal and certain non-federal employees participate in the Civil Service Retirement System
     (CSRS) or the Federal Employees’ Retirement System (FERS). FERS was established by the enactment
     of Public Law 99-335. Pursuant to this law, FERS and the Social Security and the Thrift Savings Plan
     program automatically cover most employees hired after December 31, 1983. Employees hired before
     January 1, 1984 elected to participate in the FERS and Social Security or to remain in CSRS.

     All federal and certain non-federal employees are eligible to contribute to the Thrift Savings Plan (TSP).
     For those employees participating in the FERS, a TSP account is automatically established and ARC
     makes a mandatory one percent contribution to this account. In addition, ARC makes matching
     contributions, ranging from one to four percent, for FERS eligible employees who contribute to their TSP
     accounts. Matching contributions are not made to the TSP accounts established by CSRS employees.
     FERS employees and certain CSRS reinstatement employees are eligible to participate in the Social
     Security program after retirement. In these instances, ARC remits the employer’s share of the required
     contribution.

     The Office of Personnel Management (OPM) actuaries determine pension cost factors by calculating the
     value of pension benefits expected to be paid in the future and communicate these factors to ARC. OPM
     also provides information regarding the full cost of health and life insurance benefits. ARC does not
     recognize the imputed cost of pension and other retirement benefits during the employees’ active years of
     service as this amount is considered to be immaterial. Reporting amounts such as plan assets,
     accumulated plan benefits, and related unfunded liabilities, if any, is the responsibility of OPM.

     ARC also has a Defined Benefit Pension Plan which was open to all employees not participating in CSRS
     and FERS. ARC uses a July 1 measurement date for its plan.

     In February 2000 ARC established a 401(k) retirement plan that mirrors FERS. The plan covers
     substantially all non-federal employees. Employees are eligible to participate in and are fully vested in
     the plan upon employment. ARC’s funding policy is to make a 3% contribution of total salary and a
     matching 3% of the first 50% of the participants’ contributions to the plan up to 6% of total salary.

     Parent Child Reporting
     ARC is a party to allocation transfers with other federal agencies as both a transferring (parent) entity and
     receiving (child) entity. Allocation transfers are legal delegations by one department of its authority to
     obligate budget authority and outlay funds to another department. A separate fund account (allocation
     account) is created in the U.S. Treasury as a subset of the parent fund account for tracking and reporting
     purposes. All allocation transfers of balances are credited to this account, and subsequent obligations
     and outlays incurred by the child entity are charged to this allocation account as they execute the
     delegated activity on behalf of the parent entity. Generally, all financial activity related to these allocation
     transfers (e.g., budget authority, obligations, outlays) is reported in the financial statements of the parent
     entity, from which the underlying legislative authority, appropriations and budget apportionments are
     derived. ARC allocates funds as the parent agency to the U.S. Departments of Transportation, and
     Housing and Urban Development, as well as the Rural Development Agency, U.S. Army Corps of
     Engineers and the Economic Development Agency. Additionally, ARC receives allocation transfers, as
     the child agency from the U.S. Department of Treasury to cover Appalachian Development Highway
     System administrative costs.



                                                       14
Appalachian Regional Commission
Notes to Financial Statements
September 30, 2009 and 2008
     Net Position
     Net position is the residual difference between assets and liabilities and is comprised of unexpended
     appropriations and cumulative results of operations. Unexpended appropriations represent the amount of
     unobligated and unexpended budget authority. Unobligated balances are the amount of appropriations or
     other authority remaining after deducting the cumulative obligations from the amount available for
     obligation. The cumulative results of operations are the net results of ARC’s operations since inception.

     Net Cost of Operations
     Earned revenues arise from the collection of state contributions and are deducted from the full cost of
     ARC's major programs to arrive at net program cost. Earned revenues are recognized by ARC to the
     extent reimbursements are payable from the public, as a result of costs incurred or services performed on
     the public’s behalf.

     Budgetary Financing Sources
     Budgetary financing sources other than earned revenues provide funding for ARC’s net cost of operations
     and are reported on the Statement of Changes in Net Position. These financing sources include amounts
     received from Congressional appropriations to support its operations. A financing source is recognized
     for these appropriated funds received.

     Use of Estimates
     Management has made certain estimates when reporting assets, liabilities, revenue, and expenses, and
     in the note disclosures. The preparation of financial statements in conformity with generally accepted
     accounting principles requires management to make estimates and assumptions that affect the reported
     amounts of assets and liabilities and disclosure of contingent assets and liabilities at the date of the
     financial statements and the reported amounts of revenues and expenses during the reporting period.
     Actual results could differ from those estimates.

     Tax Exempt Status
     As an agency of the federal government, ARC is exempt from all taxes imposed by any governing body
     whether it is a federal, state, commonwealth, local, or foreign government.

     Reclassifications
     Certain items at September 30, 2008 have been reclassified to conform to the presentation at
     September 30, 2009. There was no effect on the changes in net position.

2.   Fund Balance with Treasury

     Funds with U.S. Treasury at September 30 consisted of the following:
                                                                              2009                 2008
     Fund balances
     Trust fund                                                      $        2,291,054     $     1,923,267
     Appropriated funds                                                     159,638,228         153,154,794
     Total entity fund balance with treasury                                161,929,282         155,078,061

     Non-entity fund balance with treasury                                      38,304                      -

     Total fund balance with treasury                                $      161,967,586     $   155,078,061




                                                    15
Appalachian Regional Commission
Notes to Financial Statements
September 30, 2009 and 2008

     Status of fund balance with Treasury
     Unobligated balance:
          Available                                                  $     26,925,233       $     25,496,404
          Unavailable                                                       2,431,971              3,300,540
     Obligated balance not yet disbursed                                  132,572,078            126,281,117
     Non-budgetary                                                             38,304                      -
     Total                                                           $    161,967,586       $    155,078,061

3.   Advances

     Advances at September 30 consist of the following:
                                                                             2009                    2008
     Intergovernmental
     Advances to the U.S. Army Corps of Engineers                    $       1,302,962       $      1,652,257
     Advances to the Tennessee Valley Authority                             10,876,517             10,198,373
     Advances to the Environmental Protection Agency                           150,000                      -
                                                                            12,329,479             11,850,630
     Other
     Advances to grantees to finance future program
       expenditures                                                         29,767,568             30,868,453
     Total                                                           $      42,097,047       $     42,719,083

4.   Liabilities

     The accrued liabilities of ARC are comprised of program expense accruals, payroll accruals and
     unfunded annual leave earned by employees. Program expense accruals represent expenses that were
     incurred prior to year-end but were not paid. Similarly, payroll accruals represent payroll expenses that
     were incurred prior to year-end but were not paid.

     Liabilities at September 30 consist of the following:
                                                                            2009                   2008
     Advances
     Advances from the Centers for Disease Control                  $         564,406       $       595,749
     Advances from the National Endowment for the Arts                         62,323                62,323
     Total intra-governmental                                                 626,729               658,072


     Benefits due
     Accrued health and flexible spending benefits                             87,323                87,820
     Accrued salaries and benefits                                            318,790               243,385
     Unfunded annual leave                                                    460,957               467,544
     Unfunded pension liability                                               700,075             1,576,063
     Total benefits due                                                     1,567,145             2,374,812

     Payments due to grantees to finance program expenditures               3,460,229             3,620,067
     Other agency transactions                                                 31,012                75,304
     Total liabilities                                              $       5,685,115       $     6,728,255



                                                      16
Appalachian Regional Commission
Notes to Financial Statements
September 30, 2009 and 2008
     Liabilities not covered by budgetary resources consist of the following:

                                                                                2009              2008

     Unfunded annual leave                                            $           460,957     $       467,544
     Unfunded pension liability                                                   700,075           1,576,063
     Total liabilities not covered by budgetary resources             $         1,161,032     $     2,043,607

5.   Retirement Plans

     Federal
     ARC participates in the Civil Service Retirement System (CSRS) and the Federal Employees Retirement
     System (FERS) for federal and certain non-federal employees. The CSRS and FERS plans are
     administered by the OPM. ARC’s contributions to these plans for FY 2009 were $26,521 and $96,717 for
     CSRS and FERS, respectively and contributions for FY 2008 were $39,056 and $83,534 for CSRS and
     FERS, respectively.

     Several employees also participate in the Federal Employees Health Benefit plan (FEHB) and the Federal
     Employees Group Life Insurance program (FEGLI), also administered by OPM. ARC pays a portion of
     the cost of current employees. Post-retirement benefits are paid by OPM. No amounts have been
     recognized in the financial statements for these imputed costs as they are not deemed material. ARC’s
     contributions to these plans for FY 2009 were $66,785 and $2,030 and for FY 2008 were $69,638 and
     $2,099 for FEHB and FEGLI, respectively

     ARC does not report in its financial statements CSRS, FERS, FEHB or FEGLI assets, accumulated plan
     benefits or unfunded liabilities, if any, applicable to its employees.

     ARC also contributed $36,864 and $33,977 to the Federal Thrift Savings plan for all eligible employees
     for the years ended September 30, 2009 and 2008, respectively.

     Non-Federal
     The following table presents the pension benefit expense for the defined benefit pension plan by
     component for fiscal years 2009 and 2008:
                                                                                2009                2008

     Service cost                                                    $            536,183     $      553,305
     Interest cost                                                                705,990            664,839
     Expected return                                                            (454,788)          (421,202)
     Amortization of prior service cost                                           418,870            418,870
     Recognized loss                                                               67,132             37,909
     Net periodic benefit expense                                    $          1,273,387     $    1,253,721

     The following table presents the pension liability by component for fiscal years 2009 and 2008:

                                                                                 2009               2008

     Pension liability at October 1                                      $       1,576,063    $   2,327,001
     Net periodic benefit expense                                                1,273,387        1,253,721
     Contributions                                                              (2,149,375)       (2,004,659)
     Pension liability at September 30                                   $        700,075     $   1,576,063


                                                      17
Appalachian Regional Commission
Notes to Financial Statements
September 30, 2009 and 2008
                                                                              2009                    2008
     Additional Information
     Benefit obligation                                               $     (13,814,271)      $     (10,682,35)
     Fair value of plan assets                                                7,077,988              5,797,033
     Funded status                                                    $      (6,736,283)      $     (4,885,324)

     Employer contribution                                            $       2,129,249       $      1,985,638
     Participant contribution                                                    20,126                 19,021
     Benefits paid                                                            1,193,575                  4,488
     Net periodic benefit expense                                             1,273,387              1,253,721

     The accumulated benefit obligation was $11,8881,525 and $9,460,083 at September 30, 2009 and 2008,
     respectively.
     Weighted-average of economic assumptions used to determine benefit obligations at September 30:
                                                                               2009                    2008

     Discount rate                                                            5.50%                   7.00%
     Rate of compensation increase                                            3.00%                   3.00%
     Weighted-average of economic assumptions used to determine net periodic benefit cost for the years
     ended September 30:
                                                                     2009                   2008

     Discount rate                                                            7.00%                   6.25%
     Expected return on plan assets                                           7.25%                   7.25%
     Rate of compensation increase                                            3.00%                   3.00%

     Historical returns of multiple asset classes were analyzed to develop a risk-free real rate of return and risk
     premiums for each asset class. The overall rate for each asset class was developed by combining a
     long-term inflation component, the risk-free real rate of return, and the associated risk premium. A
     weighted-average rate was developed based on those overall rates and the target asset allocation plan.

     Plan Assets

     Pension plan weighted-average asset allocations at September 30 are as follows:

                                                                             2009                   2008
     Asset Category
     Cash                                                                   16.00%                 10.00%
     Bonds                                                                  32.00%                 31.00%
     Equity securities                                                      47.00%                 40.00%
     International stocks                                                                          14.00%
     Real estate                                                             5.00%                  5.00%
     Total assets                                                          100.00%                100.00%

     ARC’s investment strategy is a long-term, risk-controlled approach using diversified investment options
     with a minimal exposure to volatile investment options like derivatives. ARC expects to contribute
     $2,129,249 to the plan in FY 2010.



                                                      18
Appalachian Regional Commission
Notes to Financial Statements
September 30, 2009 and 2008
     The following benefit payments, which reflect expected future service, as appropriate, are expected to be
     paid as follows:
                                   Fiscal Year             Pension Benefits
                                      2010              $          5,464,047
                                      2011                           548,019
                                      2012                         1,694,559
                                      2013                            18,792
                                      2014                           620,874
                               Years 2015 – 2019                   6,218,768

     ARC contributed $190,502 and $181,753 to the 401(k) plan for the years ended September 30, 2009 and
     2008, respectively.

6.   Operating Lease

     ARC’s lease for its office commenced on January 1, 2007 and extends through December 31, 2016. It
     provides for increases in annual base rent of 2 percent per year beginning January 1, 2008, and every
     year thereafter for the remainder of the lease term. The future minimum lease payments required under
     this lease are as follows:

                                       Fiscal Year            Amount
                                          2010            $      795,146
                                          2011                   810,547
                                          2012                   829,781
                                          2013                   847,426
                                          2014                   864,375
                                        Thereafter             2,006,890
                                             Total        $    6,154,165

     Rent expense for the years ended September 30, 2009 and 2008 was $780,046 and $707,726,
     respectively.

7.   Earmarked Fund
     Condensed financial information for the ARC trust fund for the years ended September 30 is:

      Balance Sheet
      Assets                                                               2009                    2008
        Fund balance with U.S. Treasury                              $      2,291,054      $        1,923,267
        Cash in commercial institutions                                        31,012                  87,820
        Total assets                                                        2,322,066               2,011,087
      Liabilities and net position
         Accounts payable                                                      41,219                 217,477
         Benefits due and payable                                           1,299,491               2,191,956
        Cumulative results of operations                                      981,356                (398,346)
        Total liabilities and net position                           $      2,322,066      $        2,011,087




                                                     19
Appalachian Regional Commission
Notes to Financial Statements
September 30, 2009 and 2008
      Statement of Net Cost
         Program costs                                                    $        6,145,275          $       6,785,916
         Less: earned revenues                                                     3,762,977                  3,936,564
            Net cost of operations                                        $        2,382,298          $       2,849,352

      Statement of Changes in Net Position
      Net position, beginning of period                                   $         (398,346)         $       (1,156,994)

         Transfers in/out without reimbursement                                     3,762,000                  3,608,000
         Net cost of operations                                                    (2,382,298)                (2,849,352)
         Change in net position                                                     1,379,702                    758,648
      Net position, end of period                                         $          981,356          $           (398,346)

8.   Status of Budgetary Resources

     A. Apportionment Categories of Obligations Incurred
        Obligations incurred reported on the Statement of Budgetary Resources consist of the following:

                                                                                2009                       2008
         Direct obligations
           Category A                                                 $        2,010,806         $     5,237,449
           Category B                                                         82,937,649              73,709,286
           Exempt                                                              7,247,703               7,230,245
         Total direct obligations                                     $       92,196,158         $    86,176,980

     B. Permanent Indefinite Appropriations
        The Commission’s permanent indefinite appropriation includes the trust fund. These funds are described in
        Note 8.

     C. Explanation of Differences between the Statement of Budgetary Resources and the Budget of the
        U.S. Government
        Statement of Federal Financial Accounting Standards No. 7, Accounting for Revenue and Other
        Financing Sources and Concepts for Reconciling Budgetary and Financial Accounting, calls for
        explanations of material differences between amounts reported in the Statement of Budgetary
        Resources (SBR) and the actual balances published in the Budget of the U.S. Government
        (President’s Budget). The Budget of the U. S. Government, with the Actual column completed for
        2008 and 2007, was reconciled to the Statement of Budgetary resources as follows:

                                                                                   2008
                                                                                            Distributed
                                                    Budgetary       Obligations             Offsetting               Net
         (Dollars in Millions)                      Resources        Incurred                Receipts               Outlays
         Statement of Budgetary Resources         $    115        $     86                $      4                $   76
         Reconciling Items
          Offsetting collections and receipts              (1)                 2                     (2)                5
         Budget of the U.S. Government            $    114        $           88          $          2            $    81




                                                      20
Appalachian Regional Commission
Notes to Financial Statements
September 30, 2009 and 2008
                                                                                2007
                                                                                         Distributed
                                                   Budgetary         Obligations         Offsetting        Net
          (Dollars in Millions)                    Resources          Incurred            Receipts        Outlays
          Statement of Budgetary Resources       $    109          $     84            $      2         $   80
          No Reconciling Items
          Budget of the U.S. Government          $      109        $       84          $      2         $     80

9.    Undelivered Orders at the End of the Period

      The amount of budgetary resources obligated for undelivered orders are $128,831,106 and $122,343,662
      as of September 30, 2009 and 2008, respectively.

10.   Subsequent Events

      ARC has evaluated subsequent events occurring after the balance sheet date and through the date of
      May 7, 2010, the date the financial statements were available for release. Based upon this evaluation, ARC has
      determined that no subsequent events have occurred which require disclosure in the financial statements.




                                                       21
Appalachian Regional Commission
Notes to Financial Statements
September 30, 2009 and 2008
11.   Reconciliation of Net Cost to Budget
      ARC presents the Statement of Net Cost using the accrual basis of accounting. This differs from the
      obligation-based measurement of total resources supplied, both budgetary and from other sources, on
      the Statement of Budgetary Resources.
                                                                            2009              2008
      Resources Used to Finance Activities:
        Budgetary resources obligated
        Obligations incurred                                           $    92,196,158    $   86,176,980
        Less: spending authority from offsetting collections
          and recoveries                                                    10,232,419         9,850,604
        Obligations net of offsetting collections and recoveries            81,963,739        76,326,376
        Less: offsetting receipts                                            7,550,281         4,636,738
        Obligations net of offsetting collections and recoveries            74,413,458        71,689,638

         Net obligations                                                    74,413,458        71,689,638

         Total resources used to finance activities                    $    74,413,458    $   71,689,638

      Resources Used to Finance Items not Part of the Net Cost of Operations
        Change in budgetary resources obligated for goods, services
          and benefits ordered by not yet provided                     $     8,189,113    $   38,445,601
        Resources that fund expenses recognized in prior periods               963,604          (750,938)

         Total resources used to finance items not part
            of the net cost of operations                                    9,152,717        37,694,663

         Total resources used to finance the net cost of operations    $    65,260,741    $   33,994,975

      Components of the Net Cost of Operations that will not Require or Generate
      Resources in the Current Period
        Components requiring or generating resources in future periods
        Increase in annual leave liability                              $             -   $      (97,498)
        Other                                                                    20,776             (684)
        Total components of net cost of operations that will require
           or generate resources in future periods                               20,776          (98,182)
        Components requiring or generating resources:
        Depreciation                                                                  -           44,563
        Reconciling Items:
           4902 adjustments                                                   2,351,388       41,408,796
           4901 adjustments                                                                   (3,608,000)
           HHS budgetary adjustment                                                             (105,908)
           Other                                                                113,274       (1,291,722)
        Net components of net cost of operations that will not require
           or generate resources in the current period                        2,464,662       36,447,729

           Net Cost of Operations                                      $    67,746,179    $   70,344,522



                                                          22
